Visa Platinum Disclosure
Interest Rates and Interest Charges

Annual Percentage Rate (APR)
for Purchases

9.50% - 12.50%

APR for Balance Transfers

9.50% - 12.50%

Based on creditworthinesss. This APR shall be determined by the Hughes Federal Credit Union's Board
of Directors

Based on creditworthinesss. This APR shall be determined by the Hughes Federal Credit Union's Board
of Directors

APR for Cash Advances

9.50% - 12.50%
Based on creditworthinesss. This APR shall be determined by the Hughes Federal Credit Union's Board of
Directors

Penalty APR when it applies

16.99%
This APR may be applied to your account if you make a late payment for two
(2) consecutive months.
How Long Will the Penalty APR Apply: If your APR is increased for the above
reason, the Penalty APR will apply until you make six (6) consecutive minimum
payments when due.

Paying Interest

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection
Bureau

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month. We will begin charging interest on cash advances and balance
transfers on the transaction date.
None
To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
* Balance Transfer
* Cash Advance
* Foreign Transaction

None

None
None
1% of each transaction in U.S. dollars.
An international transaction fee may be charged for any card transaction or purchase made in a foreign
country or involving a merchant located in a foreign country, even if you are in the United States while making
the transaction.

Penalty Fees
* Late Payment
* Over-the-Credit Limit
* Returned Payment
Other Fees
*Card Replacement
*Pull and Rush Fee
*Convenience Check Fees

*Pay by Phone (expedited)
*DesignYour Own Card

Up To $30
Up To $20
Up To $30

$10
$30
$10 for returned checks
$7.50 for stop payment
$7.50 for each check copy
$4.95
$9.95

How Will We Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See your account
agreement for more details.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

Platinum-A-Credit-Card-Disclosure-ML 04/27/2021

